           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



      ADMINISTRATIVE COSTS
    CLAIMED BY THE TENNESSEE
    DISABILITY DETERMINATION
             SERVICES

    March 2007    A-04-06-16053




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                             SOCIAL SECURITY
MEMORANDUM

Date:      March 30, 2007                                                                    Refer To:

To:        Paul D. Barnes
           Regional Commissioner
            Atlanta

From:      Inspector General

Subject:   Administrative Costs Claimed by the Tennessee Disability Determination Services
           (A-04-06-16053)


           OBJECTIVE
           Our objectives were to (1) evaluate the Tennessee Disability Determination Services’
           (TN-DDS) internal controls over the accounting and reporting of administrative costs,
           (2) determine whether costs claimed were allowable and properly allocated and funds
           were properly drawn, and (3) assess the general security controls environment.

           BACKGROUND
           Disability determinations under the Social Security Administration’s (SSA) Disability
           Insurance (DI) and Supplemental Security Income (SSI) programs are performed by
           Disability Determination Services (DDS) in each State or other responsible jurisdiction,
           according to Federal regulations. 1 Each DDS is responsible for determining claimants’
           disabilities and ensuring adequate evidence is available to support its determinations. 2

           To make proper disability determinations, each State agency is authorized to purchase
           consultative examinations and medical evidence of record from the claimants’
           physicians or other treating sources. 3 SSA reimburses the State agency for
           100 percent of allowable expenditures. The DDSs report program disbursements and
           unliquidated obligations on Form SSA-4513, State Agency Report of Obligations for
           SSA Disability Programs (SSA-4513). 4 The DDS withdraws Federal funds through the
           1
               20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.
           2
               Id.
           3
            SSA, Program Operations Manual System (POMS), DI 39545.001(B)(4).
           4
             SSA, POMS, DI 39506.200(B)(4), “Unliquidated obligations represent obligations for which payment
           has not yet been made. Unpaid obligations are considered unliquidated whether or not the goods or
           services have been received.”
Page 2 – Paul D. Barnes


Department of the Treasury’s (Treasury) Automated Standard Application for Payments
(ASAP) system to pay for program expenditures. For additional background, scope
and methodology, see Appendix B.

RESULTS OF REVIEW
TN-DDS did not always properly account for, report, and/or comply with SSA policy
when billing SSA about $2.6 million in costs (as detailed in Table 1). During our 3-year
audit period, TN-DDS claimed reimbursement for $473,548 in unallowable
Communication, Personnel and Medical costs. Additionally, TN-DDS reported $49,374
in non-reimbursable costs for State Medicaid work it performed. Also, the DDS could
not provide documentation to support $18,585 in expenditures for Federal Fiscal
Years (FY) 2002 and 2003.

Regarding cash management, TN-DDS did not always comply with regulations and
policies for drawing Federal funds against allowable claims. TN-DDS’ cash draws
exceeded SSA’s total funding authorization by $416,413—$64,353 in FY 2003 and
$352,060 in FY 2004. Also, TN-DDS transferred significant funds between Treasury
accounts that were established for expenditures occurring in specific FYs. In another
cash management issue, TN-DDS did not adjust unliquidated obligations totaling
$135,555 in FYs 2003 and 2004.

    Table 1: Improperly Accounted/Reported Costs and Excess Office Space
                      Discrepancy Type                Amount
          Unallowable Communication, Personnel and
          Medical Costs                                  $473,548
          State Medicaid Costs Billed to SSA               49,374
          Unsupported Costs                                18,585
          Cash Draws Exceeding SSA Funding Levels         416,413
          Unliquidated Obligations Not Adjusted           135,555
           Excess Office Space                                    1,236,400
           Unallowable Telephone System Charges                     255,000
                                              Total              $2,584,875

Additionally, although outside our original audit period, we noted an issue regarding the
DDS’ lease of new office space and duplicate moving expenses. Accordingly, we
expanded our review to address these concerns. In September 2004, the TN-DDS
relocated to new office space, for which the DDS signed a 10-year lease. TN-DDS
leased 133,365 square feet of privately owned space to accommodate a projected staff
of 654. However, the TN-DDS had not reached this staffing level, and, based on
anticipated budget constraints, will likely remain at staffing levels far below 654.

For the first quarter of FY 2006, the total staff housed at the TN-DDS peaked at
580 employees. However, the average staffing level during the 3-year period was only
471. Based on the peak staffing level of 580, SSA policy would allow a maximum
Page 3 – Paul D. Barnes


87,000 square feet (580 employees X 150 square feet per employee) of office space. 5
Therefore, TN-DDS was occupying at least 46,365 square feet more than allowed by
SSA policy at a monthly cost of $61,820. The total amount SSA paid the TN-DDS for
office space above that permitted by policy was $1,236,400 from February 2005
through September 2006. 6 If SSA does not take action to reduce the space or the
associated costs, it will reimburse the DDS another $741,840 above allowed costs in
FY 2007 and about $5.2 million extra over the remaining life of the lease (FYs 2008
through 2014).

Additionally, the TN-DDS claimed about $255,000 in unallowable telephone system
expenses through its quarterly allocation of moving expenses.

Our limited review of the TN-DDS security controls environment showed that controls
were in place.

UNALLOWABLE COSTS
Costs Improperly Charged to SSA

As detailed in Table 2, during our audit period, TN-DDS claimed reimbursement for
$473,548 in costs that should not have been charged to SSA.

                  Table 2: Unallowable Costs by Cost Category and FY
                            FY       Cost Category     Amount
                           2004      Communications     $300,000
                           2004         Personnel        159,658
                           2002          Medical          13,890
                                                Total   $473,548

In the fourth quarter of FY 2004, TN-DDS claimed $300,000 for Communications
expenses on its SSA-4513. Although TN-DDS obligated $300,000 in FY 2004 to
purchase a new telephone system, it purchased the system with FY 2005 funds.
A TN-DDS official acknowledged the expense was inadvertently claimed in FY 2004,
which resulted in an improper charge to SSA.

As detailed in Table 3, in FY 2004, TN-DDS claimed $159,658 in unallowable
Personnel costs. According to a TN-DDS official, the payroll expenses were for State
Medicaid employees and should not have been charged to SSA.

5
    SSA, POMS, DI 39527.050(D)(5).
6
  The TN-DDS began charging the full monthly lease expense in February 2005. From September 2004
through January 2005, the TN-DDS billed SSA for some “Occupancy Costs.” However, the periodic
amounts did not correspond to the full monthly lease expense (total square feet X $16). As we could not
determine what the other occupancy costs represented, we did not include them in the total amount we
questioned.
Page 4 – Paul D. Barnes


                    Table 3: Unallowable Personnel Costs—FY 2004
                                    2nd Quarter      3rd Quarter      4th Quarter       Total
    Non-SSA Personnel Costs           $22,263          $52,729          $84,666       $159,658

Finally, in FY 2002, TN-DDS claimed $13,890 in unallowable Medical costs. In the
fourth quarter of FY 2002, TN-DDS claimed $13,890 for supplies on the SSA-4513.
However, on the same SSA-4513, the DDS recorded an erroneous $13,890 charge in
the Medical cost category. A TN-DDS official agreed the DDS improperly posted the
charge, which resulted in a duplicate billing.

Non-SSA Costs

As detailed in Table 4, during our 3-year audit period, TN-DDS claimed $49,374 for
non-SSA work. Specifically, TN-DDS did not reduce costs it charged SSA to account
for State Medicaid work it performed.

                          Table 4: Unallowable Non-SSA Costs
                                   FY 2002        FY 2003       FY 2004        Total
            Non-SSA Costs           $8,507        $14,135       $26,732       $49,374

A memorandum of understanding between the Tennessee Department of Human
Services (TN-DHS) and SSA provides that the TN-DDS may process State Medicaid
disability claims. According to the agreement, the cost for this work should be
identified and excluded from the quarterly SSA-4513. To account for expenditures that
occurred after each of the 3 FYs in our audit period, TN-DDS submitted “supplemental”
SSA-4513s. However, TN-DDS did not exclude State Medicaid expenses from these
reports. As a result, TN-DDS charged $49,374 in unallowable State Medicaid costs to
SSA. A TN-DDS official agreed the non-SSA costs were improperly charged and the
funds should be returned to SSA.

Unsupported Expenditures

TN-DDS could not locate documentation to support $18,585 in expenses it claimed on
SSA-4513s for FYs 2002 and 2003. Office of Management and Budget Circular A-87,
Cost Principles for State, Local, and Indian Tribal Governments, states, “. . . to be
allowable under Federal awards, costs must . . . be adequately documented.” 7 Further,




7
 Office of Management and Budget Circular A-87, Attachment A, section (C)(1)(j) (as amended
May 10, 2004).
Page 5 – Paul D. Barnes


SSA policy requires that an agency retain financial records and supporting
documentation until a Federal audit has been performed and all findings have been
resolved. 8 Table 5 identifies the amount and number of unsupported expenditure
transactions.

                 Table 5: Unsupported Expenditure Transactions
                              FY 2002                     FY 2003
     Cost Category Transactions Expenditures Transactions Expenditures
        DDS Travel        1               $470        1             $262
     Communications       1             $9,685        1           $8,168
             Totals       2            $10,155        2           $8,430

CASH MANAGEMENT
Cash Draws Exceeded SSA’s Funding Authorization

During our audit period, TN-DDS’ cash draws exceeded SSA’s total funding
authorization by $416,413: $64,353 and $352,060 in FYs 2003 and 2004, respectively.
Each year, SSA authorizes a budget to reimburse TN-DDS for 100 percent of its
allowable expenditures. The total budgeted funds are not immediately available to
TN-DDS. Rather, during the FY, SSA intermittently creates an “obligation authority,”
which effectively releases a portion of the budgeted funds to Treasury’s ASAP account
for TN-DDS’ use. TN-DDS has a separate ASAP account for each FY.

TN-DDS periodically withdrew funds from the ASAP account close to the level of its
authorized funding. However, after the funds were withdrawn, SSA reduced TN-DDS’
obligational authority below the amount of funds already drawn. When the total
obligational authority is reduced, the ASAP funding should be reduced accordingly.
However, TN-DDS did not ensure unauthorized funds were returned to coincide with
SSA’s reduction in funding.

Expenditures TN-DDS claimed on its SSA-4513s for FYs 2003 and 2004 agreed with
SSA’s final funding authorization for both years. This reconciliation demonstrates that
SSA fully funded TN-DDS’ operations. Therefore, we consider the ASAP funds drawn
in excess of SSA’s final authorization to be overdrawn. Accordingly, SSA should
require that TN-DDS refund $64,353 and $352,060 to the FY 2003 and 2004 ASAP
accounts, respectively. Table 6 provides details of SSA’s funding authorization, the
ASAP authorized funding, and expenditures claimed by the TN-DDS.




8
    SSA, POMS, DI 39509.005(C)(1)(b).
Page 6 – Paul D. Barnes


                 Table 6: ASAP Draws Exceeded SSA’s Authorization
                                                                                  ASAP
              SSA’s
                            Expenditures          ASAP         ASAP             Authorized
              Final
   FY                        Claimed on           Cash        Available        Funds Exceed
            Authorized
                             SSA- 4513            Draws       Balance          SSA’s Funding
             Funding
                                                                               Authorization
   2003      $36,237,166          $36,237,166   $36,301,519              0               $64,353
   2004      $39,561,257          $39,561,257   $39,913,317              0              $352,060


Additionally, during our 3-year audit period, TN-DDS’ total ASAP cash draws exceeded
the total disbursements it reported on the SSA-4513s by about $3.8 million (Table 7).

            Table 7: ASAP Cash Draws Exceed Reported Expenditures
                   ASAP     Expenditures   ASAP       ASAP Draws
                   Cash         Per       Available      Exceed
           FY    Draws (1)   SSA- 4513    Balance     Expenditures
          2002      $39,818,625         $37,399,014              0              $2,419,611
          2003      $36,944,037         $36,229,666              0                714,371
          2004      $40,250,397         $39,561,257              0                689,140
                                                           Totals              $3,823,122
          (1) Cash draws include funds transferred to other FY ASAP accounts

While reviewing the ASAP draws, we determined TN-DDS transferred funds between
FY ASAP accounts. As a result, ASAP cash draws did not equal the expenditures
reported on the respective years’ SSA-4513s. Because the ASAP accounts we
reviewed contained transfers from ASAP accounts outside our audit period, we could
not conclude the exact amount TN-DDS’ draws exceeded its reported disbursements.
To do so would require a reconstruction of all cash draws from years before and after
our audit period to determine whether cash draws were appropriate.

A TN-DDS official acknowledged ASAP funds were transferred between ASAP
accounts. The official explained that fund transfers were a common practice to
reconcile differences during the transition from one Federal year to the next. Because
this practice occurred over an extended time, we believe TN-DDS should reconcile
ASAP cash disbursements to reported expenditures (by FY) to ensure the ASAP
disbursements were appropriate. The significant funds transferred between FY ASAP
accounts are detailed in Table 8.
Page 7 – Paul D. Barnes


     Table 8: Significant Funds Transferred Between Federal FY ASAP Accounts
       Transfer Date      FY 2001    FY 2002    FY 2003    FY 2004 FY 2005
      November 1, 2001        ($541,064)      $467,896
      November 7, 2001         (291,714)       179,987
      November 18, 2001                       (240,747)     $170,470
      December 11, 2002                        836,870      (902,269)
      May 28, 2003                             932,832    (1,023,140)
      December 4, 2003                                         43,854    (69,158)
      April 13, 2004                                        $428,194    (612,516)
      October 10, 2004                                                    284,866   (349,764)
      November 11, 2004                                                    52,214    (55,315)
      Numbers in (RED) indicate a transfer of funds TO another FY ASAP account.
      Numbers in BLACK indicate a transfer of funds FROM another FY ASAP account.

The transfer of funds between ASAP accounts allows for an inappropriate use of
one FY’s appropriation to pay the expenses of another FY. Federal statute states,
“The balance of an appropriation or fund limited for obligation to a definite period is
available only for payment of expenses properly incurred during the period of
availability or to complete contracts properly made within that period of availability and
obligated consistent with section 1501 of this title.” 9

We addressed a similar situation in our March 2006 report, Administrative Costs
Claimed by the North Carolina Disability Determination Services. In this report, we also
emphasized that funds should not be transferred between FY ASAP accounts.
Additionally, we recommended that the Atlanta Regional Office (ARO) require that
DDSs obtain SSA approval before transferring funds between ASAP accounts. The
ARO agreed with the recommendation.

During our TN-DDS audit, we discussed ASAP interfund transfers with an ARO official.
The official informed us the Region now requires that DDSs inform the ARO of
significant interfund transfers. The ARO official also explained that the interfund
transfers identified at TN-DDS occurred before the improved cash management
procedures were implemented.

Unliquidated Obligations

TN-DDS did not adjust unliquidated obligations, totaling $135,555, for its FY 2003 and
2004 information technology systems (ITS) and operations authorizations. POMS
requires that States review the status of unliquidated obligations at least once a month
and cancel those that are no longer needed. 10


9
    31 U.S.C. § 1502(a).
10
     SSA, POMS, DI 39506.203(A).
Page 8 – Paul D. Barnes


In FYs 2003 and 2004, SSA specifically authorized $128,055 for ITS expenses. SSA
made the funds available to TN-DDS in FY ASAP accounts separate from the DDS’
operational funding. The ITS funding for FYs 2003 and 2004 was $119,255 and
$8,880, respectively. At the time of our audit, the entire balances remained available in
both of the ITS ASAP accounts. Further, TN-DDS had not yet prepared the required
SSA-4513 to account for the funds. A DDS official informed us that the DDS paid for
ITS expenditures with operating funds rather than ITS funds. Also, the official
acknowledged that, to properly account for the funds, ITS funding authorizations would
need to be revised, and adjusted SSA 4513s would need to be prepared.

In FY 2003, $7,500 in unliquidated obligations remained in the DDS funding
authorization for operations. A DDS official explained the unliquidated obligations were
for planned FY 2003 training, which did not occur. Because the training had not
occurred at the time of our audit, we believe the funds should be deobligated.
However, because no funds are available in the FY 2003 ASAP account and the DDS’
draws already exceed SSA’s funding authorization, a deobligation action will result in
ASAP draws further exceeding authorized funding. Therefore, TN-DDS should refund
the $7,500 in unobligated funds.

EXCESS OCCUPANCY COSTS

Excess Office Space

In September 2004, the TN-DDS relocated its operation to a 9-story private office
building in Nashville, Tennessee, for which the DDS signed a 10-year lease. The State
of Tennessee leases a majority of the new building’s 203,281 square feet of office
space. TN-DDS subleases 133,365 square feet from the State at a cost of $16 per
square foot ($177,820 each month or about $2.1 million, annually).

In planning its relocation, the TN-DDS developed an office space proposal for
115,562 square feet based on an estimated staff of 654. The DDS ultimately leased
133,365 square feet. When the proposal was developed, TN-DDS had about 430 staff.
Since 2004, TN-DDS has not experienced an increase in personnel that would justify
office space for 654 staff. The total staff housed at the TN-DDS peaked at 580 in the
first quarter of FY 2006. However, by the next quarter, staffing had dropped to
471 employees, and, at the end of the third quarter of FY 2006, the TN-DDS full-time
equivalents (FTE)11 had decreased to 460. Further, during this quarter, the State
Medicaid staff that processes joint claims was relocated to office space outside the
TN-DDS. 12 The DDS’ staffing level for FYs 2004 through 2006 is detailed in Table 8.




11
     An FTE represents an employee who works 40 hours per week, or 2,080 hours per year.
12
  A memorandum of understanding between the TN-DHS and the SSA allows State Medicaid staff
processing joint disability insurance claims to be housed in the TN-DDS office space.
Page 9 – Paul D. Barnes


            Table 8: Federal FTEs and State Staff for FYs 2004 through 2006 13
                          Fiscal Year 2004             Fiscal Year 2005             Fiscal Year 2006
                             By Quarter                   by Quarter                   by Quarter
                       st      nd       rd    th     st    nd       rd    th     st     nd      rd       th
                      1       2        3     4     1      2        3     4      1      2        3        4

 SSA FTEs             404     396      415   449   443     457     464   518    568    461      460      446
                                                                                                    14
 State Staff           19         18   17     16    18        19   20    12     12      10      0             0
 Total Staff          423     414      432   465   461     476     484   530    580    471      460      446
                                                                                           15
                                       Average Total Staff for the 3-Fiscal Years = 471


SSA policy allows a DDS to occupy a maximum of 150 square feet per FTE. 16 Based
on the peak staff of 580, SSA would only allow a maximum 87,000 square feet
(580 employees X 150 square feet per employee) of office space. 17 Therefore,
TN-DDS was occupying 46,365 square feet more than allowed by SSA policy, at a cost
of $61,820 per month, $741,840 annually, and $1,236,400 for the period
February 2005 through September 2006. Further, if SSA does not take action to
reduce the excess space, it will reimburse the DDS about $5.2 million extra over the
remaining life of the lease (FYs 2008 through 2014). The excess office space is
apparent in unused work space. While at TN-DDS, we observed numerous
unoccupied office cubicles. In fact, the office design plan for the TN-DDS indicated the
planned installation of about 740 cubicles.

Although the ARO could not provide documentation to support its formal approval of
TN-DDS’ relocation plan, its actions demonstrated that it concurred with the relocation.
By doing so, the Agency did not follow its own policy. 18




13
  Data obtained from Form SSA-4514, Time Report of Personnel Services for Disability Determination
Services. This Form reports the FTEs based on the total hours charged for the quarter.
14
  Because State Medicaid staff that process joint DI claims were no longer housed in the TN-DDS at the
end of the third quarter, we presented these staff as zero.
15
     Average of the total staff for the 12-quarters of FYs 2004 through 2006.
16
     SSA, POMS, DI 39527.050(D)(5).
17
  Conservatively, we based the maximum allowable square footage determination on the 580 peak staff
level reached in the first quarter of FY 2006 — even though Table 8 indicates the total staff for certain
quarters was substantially lower than the 580 peak.
18
  Even if the TN-DDS did reach the projected staffing level of 654, SSA policy would have limited the
DDS to leasing about 98,100 (654 X 150) square feet of office space, or 35,265 less than what was
actually leased. Additionally, at this level, the Agency would still be reimbursing the DDS $564,240 more
annually than permitted by SSA policy.
Page 10 – Paul D. Barnes


Excess Allocation of Move-Related Expenses

When TN-DDS began relocating in the fourth quarter of FY 2004, SSA did not initially
reimburse the State for most of the move-related expenses. Instead, the Tennessee
Department of Finance and Administration (TN-DFA) funded most of the relocation
expenses with the understanding that SSA would reimburse the State over a 3-year
period. TN-DFA reported that about $2.9 million in move-related expenses (mostly
furniture, fixtures, and a telephone system) were due from SSA. To recover these
expenses, about midway through FY 2005, the TN-DDS began claiming an additional
$241,724 in Occupancy expense on each of its quarterly SSA-4513s.

Included in this quarterly charge was an allocation to recover the cost of a new
telephone system for TN-DDS. However, we determined TN-DDS already claimed
costs for a telephone system on its FY 2005 SSA-4513s. As a result, SSA is being
allocated duplicate charges for this telephone system (about $612,000). We estimated
that, from July 2005 through September 2006, TN-DDS claimed about $255,000 in
unallowable telephone system expenses through its quarterly allocation of moving
expenses.

Finally, through discussions with State officials, we determined that, beginning in
FY 2007, TN-DFA plans to allocate an additional $1.3 million for rent it paid for
TN-DDS during its relocation. However, like the telephone system, TN-DDS claimed
its entire FY 2005 rent expense on the SSA-4513 for that year. Therefore, this
additional rent allocation will result in unallowable rent expenses being charged to SSA.
TN-DDS agreed to review the matter. As these costs have not yet been passed
through to SSA, we did not question the charges. However, SSA should work with
TN-DDS and TN-DFA to ensure the $1.3 million is not allocated to SSA.

CONCLUSION AND RECOMMENDATIONS
TN-DDS did not always properly account for costs it billed to SSA. In total, the DDS
improperly billed, could not provide adequate documentation, or did not comply with
cash management procedures for about $2.6 million in costs it passed on to SSA.
Accordingly, we recommend that SSA:

1. Instruct TN-DDS to refund $300,000 in unallowable communication expenses
   charged to SSA in FY 2004.

2. Instruct TN-DDS to refund $159,658 in unallowable payroll expenses charged to
   SSA in FY 2004.

3. Instruct TN-DDS to refund $13,890 in duplicate supply expenses charged to SSA
   in FY 2002.

4. Require that TN-DDS return $49,374 in unallowable costs for non-SSA work
   performed by the TN-DDS.
Page 11 – Paul D. Barnes


5. Coordinate with TN-DDS to determine the validity of the $18,585 in unsupported
   costs and require that TN-DDS refund any unjustified expenditures.

6. Work with responsible SSA Headquarters components to determine the
   appropriateness of TN-DDS’ (1) ASAP draws in excess of authorized funding and
   (2) movement of ASAP funds between FYs. If any of the ASAP draws are
   determined to be inappropriate or excessive, seek a refund for these amounts from
   the TN-DDS.

7. Require that TN-DDS review the unliquidated FY 2003 and 2004 expenditures,
   totaling $135,555 and make appropriate adjustments.

8. Require the State to consolidate the TN-DDS office space or adjust future
   occupancy costs charged to SSA, in compliance with SSA policy.

9. Work with the TN-DDS and TN-DFA to ensure that the $255,000 in unallowable
   telephone system charges are offset against the remaining move-related
   expenses.

AGENCY COMMENTS
SSA generally agreed with our recommendations but partially agreed with
Recommendation 8. For this recommendation, the Agency responded it approved the
State’s specifications for the TN-DDS relocation, which included 45,234 square feet of
unusable space. However, SSA agreed that the TN-DDS needs to reimburse SSA the
cost for space allotted for 56 Tennessee Medicaid staff. These State employees were
originally housed in the DDS space but subsequently relocated to other State office
space. See Appendix C for the full text of SSA’s comments.

OIG RESPONSE
We are encouraged that SSA will recover the occupancy costs related to the
Tennessee Medicaid staff who are no longer housed in the TN-DDS. However, we
believe SSA should reconsider its position on the additional unused TN-DDS office
space—which exceeds space allowances provided in POMS. While SSA may have
approved the relocation plans based on planned personnel growth at TN-DDS, this
growth has not—and most likely will not—occur. As such, we see no reason why SSA
should continue to reimburse the State for empty space. Rather, we believe SSA
should negotiate with the State and determine whether savings could be achieved
through space consolidation, with excess space made available for use by other State
offices. Additionally, we encourage SSA to be mindful of POMS requirements when
negotiating with DDSs on future office space acquisitions or revise the POMS
requirements.
Page 12 – Paul D. Barnes


OTHER MATTER
Recent OIG audits of administrative costs claimed by State DDSs have found that
several DDSs occupy excess office space at a considerable cost to SSA. The problem
occurred because the SSA Regional Offices did not adhere to SSA policy, which
limited DDS office space to 150 square feet per FTE. In addition to this report, we
previously identified excess office space charges in the following reports.

•   Administrative Costs Claimed by the Michigan Disability Determination Services,
    May 2004 (A-05-03-13036).

•   Administrative Costs Claimed by the Massachusetts Disability Determination
    Services, July 2004 (A-01-04-14032).

•   Administrative Costs Claimed by the North Carolina Disability Determination
    Services, March 2006 (A-04-05-15040).

In general, SSA’s response to the findings in these reports was as follows.

•   The DDSs were not held to the maximum of 150 square feet per FTE limitation
    because the policy is outdated and does not consider the additional space needed
    to accommodate personal computers, information technology related equipment
    and training facilities.

•   The Office of Disability Determinations staff was uncertain as to what is adequate
    DDS office space but is working on a revised space plan for the DDSs.

•   Office space needs were based on anticipated increases in staffing that did not
    materialize because of budgetary constraints.

Excess office space results in additional reccurring occupancy expenses charged to
SSA. In some situations, the problem cannot be easily remedied because the DDS
has recently relocated to new office space, which makes near-term relocation
impractical. Also, given the recurrent noncompliance with SSA space policy, we are
concerned that future DDS relocations will be based on arbitrary standards that may
result in the acquisition of unnecessary and costly space. Accordingly, we believe SSA
should (1) adhere to current policy regarding DDS maximum allowable office space or
(2) if necessary, issue revised policy that establishes an updated standard for DDS
office space needs.




                                             Patrick P. O’Carroll, Jr.
                                   Appendices
APPENDIX A – Acronyms
APPENDIX B – Background, Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                            Appendix A

Acronyms
Act             Social Security Act
ARO             Atlanta Regional Office
ASAP            Automated Standard Application for Payments
C.F.R.          Code of Federal Regulations
DDS             Disability Determination Services
DI              Disability Insurance
Form SSA-4513   State Agency Report of Obligations for SSA Disability
                Programs
FTE             Full-time Equivalent
FY              Fiscal Year
ITS             Information Technology Systems
POMS            Program Operations Manual System
SSA             Social Security Administration
SSI             Supplemental Security Income
TN-DDS          Tennessee Disability Determination Services
TN-DFA          Tennessee Department of Finance and Administration
TN-DHS          Tennessee Department of Human Services
TN-DRS          Tennessee Division of Rehabilitation Services
Treasury        Department of the Treasury
U.S.C.          United States Code
                                                                             Appendix B

Background, Scope and Methodology
Background
The Disability Insurance (DI) program, established under Title II of the Social Security
Act (Act), 1 provides benefits to wage earners and their families in the event the wage
earner becomes disabled. 2 The Supplemental Security Income (SSI) program,
established under Title XVI of the Act, provides benefits to financially needy individuals
who are aged, blind, or disabled. 3

The Social Security Administration (SSA) is responsible for implementing policies for the
development of disability claims under the DI and SSI programs. Disability
determinations under both the DI and SSI programs are performed by Disability
Determination Services (DDS) in each State, Puerto Rico and the District of Columbia in
accordance with Federal regulations. 4 In carrying out its obligation, each DDS is
responsible for determining claimants’ disabilities and ensuring adequate evidence is
obtained to support its determinations. 5 Each DDS is also authorized by SSA to
purchase consultative medical examinations, such as x-rays and laboratory tests, to
supplement evidence obtained from the claimants’ physicians or other treating sources. 6

SSA reimburses the DDS for 100 percent of allowable expenditures up to its approved
annual funding authorization. The DDS withdraws Federal funds through the
Department of the Treasury’s (Treasury) Automated Standard Application for Payments
system to pay for program expenditures. Funds drawn must comply with Federal
regulations and intergovernmental agreements entered into by Treasury and States
under the Cash Management Improvement Act of 1990. 7 An advance or
reimbursement for costs under the program must comply with Office of Management
and Budget Circular A-87, Cost Principles for State, Local and Indian Tribal
Governments. At the end of each fiscal quarter, each State agency submits to SSA a


1
    Social Security Amendments of 1954, Pub. L. No. 83-761, 68 Stat. 1089.
2
    Id.
3
    Social Security Amendments of 1972, Pub. L. No. 92-603, 86 Stat. 1465.
4
    20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.
5
    Id.
6
    SSA, POMS, DI 39545.001(B)(4).
7
 Cash Management Improvement Act of 1990, Pub. L. No. 101-453, 104 Stat. 1058 (amending 31 U.S.C.
§§ 6501 and 6503).


                                                   B-1
Form SSA-4513, State Agency Report of Obligations for SSA Disability Programs
(SSA-4513) to account for program disbursements, obligations and unliquidated
obligations.

The Tennessee Disability Determination Services (TN-DDS) is a component of the
Tennessee Division of Rehabilitation Services (TN-DRS) in the Tennessee Department
of Human Services (TN-DHS). The Division of Finance and Administration, within
TN-DHS, accounts for TN-DDS disbursements and prepares the Form SSA-4513. The
State’s indirect costs for TN-DDS are determined based on a cost allocation plan
negotiated and approved by the U.S. Department of Health and Human Services.

Scope
We reviewed the administrative costs submitted by the State for TN-DDS and reported
to SSA on Form SSA-4513 for the period October 1, 2001 through September 30, 2004
(Fiscal Years [FY] 2002 through 2004). However, our findings related to Occupancy
costs affected the costs claimed in FYs 2005 and 2006. Therefore, to fully develop
these finding, we expanded the audit period to include the FY 2005 and 2006
Occupancy costs.

For the audit period, we tested the reliability of the State’s computerized data by
comparing disbursements—by category and in total—with amounts reported on the
SSA-4513. We then obtained sufficient evidence to evaluate administrative costs in
terms of their allowability under Office of Management and Budget Circular A-87 and
appropriateness, as defined by SSA’s Program Operations Manual System (POMS).

We also

•   reviewed applicable Federal regulations; pertinent parts of POMS, DI 39501; DDS
    Fiscal and Administrative Management; and other instructions pertaining to
    administrative costs incurred by the DDS and requests for Federal funds covered by
    the Cash Management Improvement Act agreement;
•   evaluated and tested internal controls regarding accounting, financial reporting, and
    cash management activities;
•   interviewed TN-DDS, TN-DHS and SSA personnel;
•   examined the administrative expenditures (personnel, medical services, and all other
    non-personnel costs) claimed by the DDS for the period October 1, 2001 through
    September 30, 2004;
•   verified indirect costs for FYs 2002 through 2004 based on the approved indirect
    cost allocation plan;
•   compared the amount of SSA funds requested and received for program operations
    to the allowable expenditures reported on the SSA-4513 3-year period
    October 1, 2001 through September 30, 2004;



                                           B-2
•   reviewed Tennessee Single Audit reports related to the 3-year period
    October 1, 2001 through September 30, 2004;
•   conducted a physical inventory of equipment items and selected computer hardware
    items SSA provided to the TN-DDS; and
•   conducted limited general control testing related to physical access security and
    security within the TN-DDS.

We conducted our audit from August 2005 through August 2006 at the TN-DDS,
TN-DRS, and TN-DHS in Nashville, Tennessee, and at SSA’s Regional Office in
Atlanta, Georgia. The electronic data used for this audit were sufficiently reliable to
meet our audit objectives. We evaluated and tested internal controls regarding
accounting, financial reporting, and cash management activities. We conducted our
audit in accordance with generally accepted government auditing standards.

Methodology
Our sampling methodology encompassed three general areas of costs, as reported on
Form SSA-4513: (1) personnel, (2) medical, and (3) all other non-personnel costs. We
obtained computerized data from TN-DDS for FYs 2002 through 2004 for use in
statistical sampling. After reviewing randomly selected samples, we did not identify
errors we felt warranted audit projection.
Personnel Costs
We reviewed 50 personnel transactions from 1 pay period in FY 2004. We tested
Tennessee Vocational Rehabilitation Department payroll records to ensure it correctly
paid employees and adequately documented these payments. For the sample pay
period, we judgmentally selected and reviewed payments to 57 medical consultants.
Medical Costs
We sampled 150 medical cost items (50 items from each FY) using a stratified random
sample. We distributed the sample items between medical evidence of record and
consultative examinations based on the proportional distribution of the total medical
costs for each year.
All Other Non-personnel Costs
We selected a stratified random sample of 150 items (50 items from each FY) from all
other non-personnel costs. Before selecting the sample items, we sorted the
transactions into the following categories: (1) Contracted Costs, (2) Electronic Data
Processing Maintenance, (3) Equipment Purchases, (4) Communication, (5) Applicant
Travel, (6) DDS Travel, (7) Supplies, and (8) Miscellaneous. We then distributed the
50 sample items for each year between categories based on the proportional
distribution of the costs.




                                            B-3
                  Appendix C

Agency Comments
                               SOCIAL SECURITY

MEMORANDUM                                         Refer To: K. Killam 2-5727


Date:      March 27, 2007

To:        Inspector General

From:      Regional Commissioner
            Atlanta

Subject:   Administrative Costs Claimed by the Tennessee Disability
           Determination Services (TN DDS) – A 04-06-16053 –
           REVISED REPLY

Thank you for the opportunity to comment on the Office of the Inspector General (OIG)
Draft Report “Administrative Costs Claimed by the Tennessee Disability Determination
Services “(A-04-06-16053). We appreciate OIG’s efforts in conducting this review.

Our response to the nine recommendations is as follows:

1. Instruct TN DDS to refund $300,000 in unallowable communication expenses
   charged to the Social Security Administration (SSA) in FY2004.

      We concur with this recommendation. Tennessee DDS double charged SSA for the
      purchase of the telephone system and needs to reimburse SSA $300,000.

2. Instruct TN DDS to refund $159,658 in unallowable payroll expenses charged
   to SSA in FY2004.

      We concur with this recommendation. Tennessee DDS erroneously charged
      Medicaid personnel costs to SSA and needs to reimburse $159,658.

3. Instruct TN DDS to refund $13,890 in duplicate supply expenses charged to
   SSA in FY2002.

   We concur with this recommendation. Tennessee DDS erroneously charged
   SSA for supplies and needs to reimburse the SSA $13,890.




                                             C-1
4. Require that TN DDS return $49,374 in unallowable costs for non-SSA work
   performed by the TN DDS.

   We concur with this recommendation. Tennessee DDS erroneously charged SSA
   for Medicaid expenses and needs to reimburse the SSA $49,374.

5. Coordinate with TN DDS to determine the validity of the $18,585 in
   unsupported costs and require that TN DDS refund any unjustified
   expenditures.

   We concur with this recommendation. Tennessee DDS did not provide
   documentation to support that travel occurred and needs to reimburse the SSA
   $18,585.

6. Work with responsible SSA Headquarters components to determine the
   appropriateness of TN-DDS’ (1) ASAP draws in excess of authorized funding
   and (2) movement of ASAP funds between FYs. If any of the ASAP draws are
   determined to be inappropriate or excessive, seek a refund for these amounts
   from the TN DDS.

   We’re working with headquarters and will provide a final response when received.

7. Require that TN DDS review the un-liquidated FY2003 and FY2004
   expenditures, totaling $135,555 and make appropriate adjustments.

   We concur with this recommendation. However, the adjusted amount is $83,605
   because the Tennessee DDS de-obligated $51,000 for moving expenses and has
   provided corrected documentation.

8. Require the State to consolidate the TN DDS office space or adjust future
   occupancy costs charged to SSA, in compliance with SSA policy.

   We do not concur with this recommendation. State specifications showed 45,234
   square feet as unusable space in the documentation SSA agreed to. However, the
   Tennessee DDS needs to reimburse SSA for the space allotted for the 56 Tenn
   Care employees that was agreed to in the original space documentation.

9. Work with the TN DDS and TN DFA to ensure that the $255,000 in unallowable
   telephone system charges is offset against the remaining move-related
   expenses.

   We concur with this recommendation. Tennessee DDS charged SSA for a moving
   expense for a telephone system that was not moved and needs to reimburse SSA
   for $255,000.




                                         C-2
Please contact me if I can be of further assistance. Staff questions should be referred
to Karen Killam at (404) 562-5727 or Sarah Henderson at (404) 562-1397.



                                         Paul D. Barnes

cc: Ms. Virginia T. Lodge
   Ms. Tamra Smith
   Ms. Sarah Henderson




                                           C-3
                                                                      Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, (205) 801-1605

   Frank Nagy, Audit Manager, (404) 562-5552

Acknowledgments

In addition to those named above:

   David McGhee, Auditor

   Charles Lober, Information Technology Specialist


For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-04-06-16053.
                           DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
